Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




ABERRANT MEDICARE HOME HEALTH
  OUTLIER PAYMENT PATTERNS IN
 MIAMI-DADE COUNTY AND OTHER
   GEOGRAPHIC AREAS IN 2008




                    Daniel R. Levinson
                     Inspector General

                      December 2009
                     OEI-04-08-00570
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
   E X E C U T I V E                                  S U M M A R Y


                  OBJECTIVE
                  To identify geographic areas that exhibited aberrant Medicare home
                  health outlier payment patterns in 2008.


                  BACKGROUND
                  In December 2008, the Centers for Medicare & Medicaid Services (CMS)
                  announced its continuing efforts to fight Medicare fraud, waste, and
                  abuse by home health providers in the Miami-Dade County area by
                  suspending provider payments and taking other payment and review
                  actions. To date, CMS has placed 33 Miami-Dade home health agencies
                  on payment suspension. In May 2009, the Department of Health and
                  Human Services and the Department of Justice created an interagency
                  Health Care Fraud Prevention and Enforcement Action Team (HEAT)
                  to combat health care fraud nationwide.

                  In 2008, Medicare paid approximately $15 billion for home health
                  services. Home health care has grown in recent years for reasons
                  including advances in medicine and technology as well as beneficiaries’
                  preference to receive treatment at home rather than in a hospital or
                  nursing home. However, the recent growth in home health care services
                  relative to the number of eligible beneficiaries indicates that it may be
                  subject to fraud.
                  In October 2000, CMS instituted a prospective payment system (PPS)
                  that pays a predetermined rate for 60-day episodes of home health care.
                  The payments are adjusted for beneficiaries’ health conditions and care
                  needs, as well as geographical wage differences. There are no limits to
                  the number of 60-day episodes eligible beneficiaries may receive.

                  Medicare makes additional payments, known as outlier payments, to
                  home health providers that supply services to beneficiaries who incur
                  unusually large costs. Although CMS does not limit, or cap, outlier
                  payments to individual providers, total outlier payments for home
                  health services may not exceed 5 percent of annual projected total home
                  health payments. In August 2009, CMS issued a home health PPS
                  proposed rule for 2010. Among other things, the proposed rule would
                  cap outlier payments to individual home health providers at 10 percent.
                  CMS estimates that an individual provider cap will reduce national
                  outlier payments to no more than 2.5 percent of total home health
                  payments.


OEI-04-08-00570   A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS   i
E X E C U T I V E                      S U          M M A R Y


                   We analyzed all Medicare home health claims that were submitted and
                   fully paid in 2008 to identify geographic areas that exhibited aberrant
                   Medicare home health outlier payment patterns. We define aberrant to
                   be at least twice the national average for three or more of the five
                   payment characteristics we reviewed.


                   FINDINGS
                   Miami-Dade County accounted for more home health outlier payments
                   in 2008 than the rest of the Nation combined. In 2008, Miami-Dade
                   County accounted for 52 percent of the approximately $1 billion Medicare
                   paid nationally in home health outlier payments, while only 2 percent of
                   all Medicare beneficiaries receiving home health services resided there. In
                   addition, 86 percent (25 of 29) of home health providers that received
                   outlier payments over $100,000 per beneficiary in 2008 were located in
                   Miami-Dade County. Further, 67 percent (174 of 259) of home health
                   providers that received total outlier payments over $1 million in 2008 were
                   located in Miami-Dade County.
                   In Miami-Dade County, Medicare outlier payments for home health
                   claims with a primary diagnosis related to diabetes were eight times
                   the national average. Medicare outlier payments for claims with a
                   primary diagnosis related to diabetes accounted for 6 percent of all home
                   health payments. In Miami-Dade County, Medicare outlier payments for
                   home health visits with a primary diagnosis related to diabetes accounted
                   for 50 percent—or eight times the national average—of total home health
                   payments. Further, the percentage of outlier payments in Miami-Dade
                   County exceeded that of other Florida counties with higher rates of
                   diabetes.
                   Twenty-three counties nationwide exhibited aberrant home health
                   outlier payment patterns similar to that of Miami-Dade County but to
                   a lesser extent. Medicare payments in Miami-Dade County were at
                   least twice the national average for all five home health outlier payment
                   characteristics we reviewed. An additional 23 counties nationwide had
                   payments that were at least twice the national average for three or
                   more of the five characteristics. In addition, 59 percent (850 of 1,432) of
                   the total home health providers in Miami-Dade County and the 23 other
                   counties with similar characteristics were paid at least twice the
                   national average for three or more of the five outlier payment
                   characteristics we reviewed.



 OEI-04-08-00570   A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS   ii
E X E C U T I V E                       S U          M M A R Y



                   RECOMMENDATIONS
                   Our findings demonstrate that home health services in Miami-Dade
                   County, as well as 23 additional counties nationwide, warrant additional
                   review as part of ongoing antifraud activities, such as HEAT, in the
                   Medicare program.

                   To address our findings, we recommend that CMS:
                   Continue with efforts to institute a cap on the total outlier payments
                   an individual home health provider may receive annually.
                   Review home health providers that exhibit aberrant outlier payment
                   patterns and respond appropriately based on the findings.
                   Continue with efforts to strengthen enrollment standards for home
                   health providers to prevent illegitimate home health agencies from
                   obtaining billing privileges.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with all three recommendations. At the time of its
                   comments, CMS was analyzing public comments on the home health
                   PPS proposed rule which would, among other things, cap outlier
                   payments at 10 percent per agency. The final rule was published in the
                   Federal Register on November 10, 2009, and is effective January 1,
                   2010. CMS has also taken steps to address widespread abuse of
                   Medicare outlier payments to home health agencies in Miami-Dade
                   County.

                   We support CMS’s efforts to address these issues and encourage it to
                   continue making progress in these areas. We made technical changes to
                   the report based on CMS’s comments.




 OEI-04-08-00570   A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS   iii
   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 8
                   Miami-Dade County accounted for more home health outlier
                   payments in 2008 than the rest of the Nation combined . . . . . . . . . 8

                   In Miami-Dade County, Medicare outlier payments for
                   home health claims with a primary diagnosis related to
                   diabetes were eight times the national average . . . . . . . . . . . . . . 10

                   Twenty-three counties nationwide exhibited aberrant home
                   health outlier payment patterns similar to that of Miami-Dade
                   County but to a lesser extent . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                   Agency Comments and Office of Inspector General Response . . . 14


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                   A: Counties in Which Medicare Home Health Payments
                      Were At Least Twice the National Average for Three
                      or More of the Five Characteristics We Reviewed . . . . . . . . . . 16

                   B: Home Health Providers in the Miami-Dade County and
                      the 23 Counties That Were Paid At Least Twice the
                      National Average for Three or More of the Five Payment
                      Characteristics We Reviewed . . . . . . . . . . . . . . . . . . . . . . . . . . 17

                   C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
   I N T R O D U C T I O N


                  OBJECTIVE
                  To identify geographic areas that exhibited aberrant Medicare home
                  health outlier payment patterns in 2008.


                  BACKGROUND
                  In December 2008, the Centers for Medicare & Medicaid Services
                  (CMS) announced its continuing efforts to fight Medicare fraud,
                  waste, and abuse by home health providers in the Miami-Dade
                  County area by suspending provider payments and taking other
                  payment and review actions. 1 To date, CMS has placed 33 Miami-
                  Dade home health agencies on payment suspension.

                  In addition to suspending payments, CMS has visited Medicare
                  beneficiaries to investigate the medical necessity of home health
                  services they received. 2 These visits indicated, among other things,
                  that services related to diabetes may represent a payment
                  vulnerability in the Medicare program. For example, some home
                  health providers received Medicare payments for reportedly providing
                  insulin injections to beneficiaries who did not qualify for home health
                  services because they were not confined to their home.
                  Medicare Home Health Services
                  In 2008, Medicare paid approximately $15 billion for home health
                  services. 3 Home health care has grown in recent years for reasons
                  including medical and technological advances. Growth in home health
                  care can also be attributed to beneficiaries’ preference to stay at home
                  rather than seek treatment in a hospital or nursing home. However,
                  the recent growth in home health care services relative to the number of
                  eligible beneficiaries indicates that these services may be subject to
                  increased fraud.


                     1 CMS, “CMS Strengthens Efforts to Fight Medicare Waste, Fraud and Abuse.” Press
                  Release, December 29, 2008. Available online at
                  http://www.cms.hhs.gov/apps/media/press_releases.asp. Accessed on June 22, 2009.
                    2 USA Today, “Sleuths go door to door to sniff out Medicare fraud.” Available online at
                  http://www.usatoday.com/news/health/2008-10-05-fraud-inside_N.htm. Accessed on
                  May 14, 2009.
                     3 Office of Inspector General (OIG) analysis of 2008 Medicare home health claims. This
                  figure reflects all claims that were submitted and fully paid in 2008. We consider a claim to
                  be fully paid if both the initial partial payment of the estimated rate for a full 60-day
                  episode of care and remaining payment, including any outlier payments, at the end of the
                  60-day episode have been made on the claim.



OEI-04-08-00570   A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS   1
I N T R O D        U C T           I O N



                    To qualify for home health services, Medicare beneficiaries must
                    (1) be confined to the home; (2) need intermittent skilled nursing
                    services, physical or speech therapy, or continuing occupational therapy;
                    (3) be under the care of a physician; and (4) be under a plan of care
                    prescribed and periodically reviewed by a physician. 4
                    Medicare Home Health Billing Requirements
                    To obtain Medicare billing privileges, home health providers must
                    submit a completed application and supporting documentation to CMS. 5
                    The application requires information such as personal details about the
                    provider (e.g., adverse legal actions and convictions); the provider’s
                    practice location; and the names of individuals having ownership or
                    managing control of the provider’s business. By signing and submitting
                    the application, the provider agrees to follow all Medicare laws,
                    regulations, and program instructions. Further, providers are required
                    to provide documentation demonstrating that they have sufficient
                    reserve funds to operate for their first 3 months as Medicare providers.

                    Once approved, home health providers may bill for all home health
                    services excluding durable medical equipment. 6 7 Providers must
                    include beneficiaries’ diagnosis codes on all claims. The primary
                    diagnosis is based on a beneficiary’s condition most related to the
                    current plan of care. 8 This code must relate to home health services
                    rendered by the provider. For example, if a provider assists a
                    beneficiary with administering insulin only, a diabetes-related diagnosis
                    code should be listed as the primary diagnosis code on the claim.
                    Medicare Payment System for Home Health Services
                    In October 2000, CMS instituted a prospective payment system (PPS)
                    that pays a predetermined rate for 60-day episodes of home health




                       4 42 CFR § 409.42.
                       5 CMS, “Medicare Enrollment Application: Institutional Providers.” Available online at
                    http://www.cms.hhs.gov/cmsforms/downloads/cms855a.pdf. Accessed on June 16, 2009.
                       6 CMS, “Home Health PPS: Overview.” Available online at
                    http://www.cms.hhs.gov/HomeHealthPPS/. Accessed on June 16, 2009.
                       7 Some home health providers may also be certified to bill Medicare for durable medical
                    equipment. Durable medical equipment includes items such as canes, knee braces, and
                    wheelchairs.
                       8 CMS, “Medicare Home Health Diagnosis Coding.” Available online at
                    http://www.cms.hhs.gov/HomeHealthPPS/Downloads/v_code_rev_stmt2.pdf. Accessed on
                    June 16, 2009.



 OEI-04-08-00570    A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS   2
I N T R O D        U C T           I O N



                    care. 9 The payments are adjusted for beneficiaries’ health conditions
                    and care needs, as well as geographical wage differences.
                    There are no limits to the number of 60-day episodes eligible
                    beneficiaries may receive. 10
                    Home health providers receive an initial partial payment of the
                    estimated rate for a full 60-day episode of care when the CMS
                    contractor servicing their area receives their claims. 11 12 Providers
                    receive the remaining payment at the end of the 60-day episode. The
                    total payment is the sum of the initial and remaining payments, unless
                    there is an applicable adjustment. 13 14 Beneficiaries do not make
                    copayments for home health services.

                    Medicare makes additional payments, known as outlier payments, to
                    home health providers that supply services to beneficiaries who incur
                    unusually high costs. 15 There is currently no limit, or cap, on outlier
                    payments an individual home health provider may receive. However,
                    total outlier payments for home health services may not exceed
                    5 percent of annual projected total home health payments. 16 17
                    In August 2009, CMS issued a home health PPS proposed rule for 2010.
                    Among other things, the proposed rule would cap outlier payments to
                    individual home health providers at 10 percent. 18 CMS estimates that
                    an individual provider cap will reduce national outlier payments to no
                    more than 2.5 percent of total home health payments.



                       9 CMS, “Home Health PPS: Overview.” Available online at

                    http://www.cms.hhs.gov/HomeHealthPPS/. Accessed on June 16, 2009.
                       10 Ibid.
                       11 Ibid.
                      12 CMS contracts with regional home health intermediaries to pay claims submitted by
                    home health providers.
                      13 CMS, “Home Health PPS: Overview.” Available online at
                    http://www.cms.hhs.gov/HomeHealthPPS/. Accessed on June 16, 2009.
                       14 An example of a payment adjustment is a partial episode payment adjustment that
                    occurs when a beneficiary transfers to another home health provider during a 60-day
                    episode.
                      15 CMS, “Home Health PPS: Overview.” Available online at
                    http://www.cms.hhs.gov/HomeHealthPPS/. Accessed on June 16, 2009.
                       16 The Balanced Budget Act of 1997, P.L. No. 105-33, 42 U.S.C. 1395fff(b)(5).
                       17 If total outlier payments exceed 5 percent in a given year, CMS may adjust its cost-
                    payment variables (e.g., fixed-dollar loss ratio) to meet the 5-percent requirement for the
                    subsequent year.
                       18 74 Fed. Reg. 40947 (Aug. 13, 2009).




 OEI-04-08-00570    A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS   3
I N T R O D         U C T           I O N



                     Health Care Fraud Prevention and Enforcement Action Team
                     In 2007, the Department of Health and Human Services (HHS) and
                     the Department of Justice (DOJ) established joint Medicare Fraud
                     Strike Force teams in South Florida and Los Angeles to combat
                     Medicare fraud. 19 As of May 2009, the team operating in South
                     Florida has convicted 146 people and secured $186 million in criminal
                     fines and civil recoveries. 20 The Medicare Fraud Strike Force was
                     designed to combat fraud through the use of Medicare data analysis
                     and an increased focus on community policing. 21 HHS and DOJ
                     recently announced the establishment of an interagency Health Care
                     Fraud Prevention and Enforcement Action Team (HEAT) to combat
                     health care fraud nationwide. 22
                     The HEAT team is focusing on fraud prevention and building on prior
                     OIG and CMS reviews of durable medical equipment providers. 23 The
                     HEAT team will also undertake initiatives including increased
                     training for providers on Medicare compliance, improving data
                     sharing between CMS and law enforcement, and strengthening
                     program integrity monitoring. In June 2009, HHS announced that as
                     part of the HEAT initiative, 53 people in Miami, Detroit, and Denver
                     were indicted for schemes to submit more than $50 million in false
                     Medicare claims. 24
                     Related Work
                     OIG has issued several reports related to home health care. These
                     reports have addressed various topics, including variation in Medicare

                        19 HHS, “Attorney General Holder and HHS Secretary Sebelius Announce New
                     Interagency Health Care Fraud Prevention and Enforcement Action Team.” News Release,
                     May 20, 2009. Available online at
                     http://www.hhs.gov/news/press/2009pres/05/20090520a.html. Accessed on June 19, 2009.
                        20 Ibid.
                        21 HHS, “Medicare Fraud Strike Force Operations Lead to Charges Against 53 Doctors,
                     Health Care Executives and Beneficiaries for More than $50 Million in Alleged False Billing
                     in Detroit.” News Release, June 24, 2009. Available online at
                     http://www.hhs.gov/news/press/2009pres/06/20090624a.html. Accessed on June 25, 2009.
                       22 HHS, “Attorney General Holder and HHS Secretary Sebelius Announce New
                     Interagency Health Care Fraud Prevention and Enforcement Action Team.” News Release,
                     May 20, 2009. Available online at
                     http://www.hhs.gov/news/press/2009pres/05/20090520a.html. Accessed on June 19, 2009.
                        23 Ibid.
                        24 HHS, “Medicare Fraud Strike Force Operations Lead to Charges Against 53 Doctors,
                     Health Care Executives and Beneficiaries for More than $50 Million in Alleged False Billing
                     in Detroit.” News Release, June 24, 2009. Available online at
                     http://www.hhs.gov/news/press/2009pres/06/20090624a.html. Accessed on June 25, 2009.



  OEI-04-08-00570    A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS   4
I N T R O D        U C T            I O N



                    payments for home health services, 25 problem providers and their
                    impact on Medicare, 26 and geographical variation in the average
                    number of visits provided by home health agencies. 27 In addition, other
                    OIG work has uncovered potential health care fraud in South Florida,
                    specifically in Miami-Dade County. 28 29 30
                    In February 2009, the Government Accountability Office (GAO) issued a
                    report on improvements needed to address improper payments in home
                    health. 31 GAO determined that compared to the rest of the country, a
                    large percentage of home health cases in Miami-Dade County involved
                    diabetic beneficiaries. Specifically, 50 percent of all Medicare
                    beneficiaries in Miami-Dade County who received home health services
                    had a diagnosis of diabetes compared to an average of 16 percent for all
                    other counties included in the analysis.


                    METHODOLOGY
                    Scope
                    We reviewed all Medicare home health claims that were submitted and
                    fully paid in 2008. 32
                    Data Source, Collection, and Analysis
                    We obtained the National Claims History file containing the home
                    health claims included in this study from CMS. We used the home
                    health provider identification numbers on the claims and information in
                    CMS’s Online Survey, Certification, and Reporting database to
                    determine the providers’ ZIP Codes. Next, we matched the providers’


                      25 OEI-04-93-00260, “Variation Among Home Health Agencies in Medicare Payments for
                    Home Health Services,” July 1995.
                      26 OEI-09-96-00110, “Home Health: Problem Providers and Their Impact on Medicare,”
                    July 1997.
                      27 OEI-04-93-00262, “Geographical Variation in Visits Provided by Home Health
                    Agencies,” September 1995.
                       28 OEI-01-08-00100, “Medicare Part B Billing for Ultrasound,” July 2009.
                       29 OEI-09-07-00030, “Aberrant Billing in South Florida for Beneficiaries with
                    HIV/AIDS,” September 2007.
                       30 OEI-03-07-00150, “South Florida Suppliers’ Compliance With Medicare Standards:
                    Results From Unannounced Visits,” March 2007.
                       31 GAO-09-185, “Medicare: Improvements Needed to Address Improper Payments in
                    Home Health.”
                       32 We consider a claim to be fully paid if both the initial partial payment of the estimated
                    rate for a full 60-day episode of care and remaining payment, including any outlier
                    payments, at the end of the 60-day episode have been made on the claim.



 OEI-04-08-00570    A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS   5
I N T R O D        U C T            I O N



                    ZIP Codes to the corresponding counties using SAS computer software
                    and determined the total number of home health providers in each
                    county. 33 Similarly, we repeated the matching process using
                    beneficiaries’ ZIP Codes listed on the claims to determine the total
                    number of beneficiaries who received home health services in each
                    county. 34 We also determined the total number of claims submitted
                    from each county where home health providers were located.

                    For each county, we calculated the total amount Medicare paid for the
                    home health claims and determined the outlier paid amounts included
                    in those payments. For each provider, we also calculated the total
                    outlier amount Medicare paid per beneficiary. In addition, we
                    calculated the total outlier amount Medicare paid in each county for
                    claims with a primary diagnosis related to diabetes. 35 Using this
                    information, we calculated the following five payment characteristics
                    nationally, as well as for each county and home health provider listed on
                    the claims: 36
                    1. average outlier payment per provider; 37

                    2. average outlier payment per beneficiary; 38

                    3. average outlier payment per claim;

                    4. outlier payment rates (i.e., outlier payments as a percentage of total
                      home health payments); and

                    5. outlier payment rates for claims with a primary diagnosis related to
                      diabetes (i.e., outlier payments for claims with a primary diagnosis
                      related to diabetes as a percentage of total home health payments).



                       33 SAS uses a ZIP Code’s geographic center to match the ZIP Code to its corresponding
                    county.
                       34 We counted each beneficiary only once.
                       35 We considered all services with a Common Procedure Terminology (CPT) code with a
                    prefix of 250 to be diabetes related. CPT codes are used to categorize medical procedures
                    and services.
                       36 According to the U.S. Census Bureau, there were 3,141 counties or county equivalents
                    in the United States in 2007. There were 2,158 counties or county equivalents listed on the
                    claims we reviewed.
                       37 This value is the equivalent of total outlier payments for an individual home health
                    provider.
                       38 Some beneficiaries received services from more than one home health provider. These
                    beneficiaries were counted more than once when calculating the average outlier payment
                    per beneficiary for each home health provider.



 OEI-04-08-00570    A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS   6
I N T R O D        U C T            I O N



                    We define payments as aberrant if they are at least twice the national
                    average for three or more of the above five payment characteristics.
                    Limitations
                    Some ZIP Codes span multiple counties. However, in this study,
                    ZIP Codes were matched to only one corresponding county. Therefore,
                    some providers, beneficiaries, and claims associated with a particular
                    county in our analysis may have actually been associated with a
                    neighboring county.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




 OEI-04-08-00570    A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS   7
              F I N D I N G S




   Miami-Dade County accounted for more home                           In 2008, Miami-Dade County
  health outlier payments in 2008 than the rest of                     accounted for 52 percent of the
                            the Nation combined                        approximately $1 billion Medicare
                                                                       paid nationally in home health
                                   outlier payments, while only 2 percent of all Medicare beneficiaries
                                   receiving home health services resided there. In addition, outlier
                                   payments constituted 59 percent of total home health payments in
                                   Miami-Dade County, but constituted only 7 percent of total home health
                                   payments, on average, nationally.
                                   As shown in Table 1, the average outlier payment per beneficiary for
                                   home health providers located in Miami-Dade County was 32 times the
                                   corresponding 2008 national average. The average outlier payment per
                                   claim in Miami-Dade County was 22 times the national average.
                                   Further, the average payment per provider in Miami-Dade County was
                                   14 times the national average.



Table 1: Summary of 2008 Medicare Home Health Outlier Payments

                                                                                                                                          Ratio of Miami-Dade
                                                                                        National             Miami-Dade                    County Average to
  Home Health Outlier Payments                                                          Average           County Average                    National Average*

  Payment per beneficiary                                                                    $378                      $11,928                               32:1

  Payment per claim                                                                          $190                       $4,100                               22:1

  Payment per provider                                                                $110,785                       $1,581,608                              14:1

  Outlier payment rate**                                                                       7%                          59%                                8:1

* Rounded to the closest whole number.
** Based on total 2008 Medicare home health payments.
Source: OIG analysis of 2008 Medicare home health claims.



                                   Over 85 percent of home health providers that received outlier payments
                                   over $100,000 per beneficiary in 2008 were located in Miami-Dade County
                                   In 2008, Medicare paid over $100,000 each for home health services
                                   provided to 33 beneficiaries nationally. The total payment for these
                                   services exceeded $3 million. Services for the 33 beneficiaries were
                                   provided by 29 home health providers. Of these providers, 86 percent
                                   (25 of 29) were located in Miami-Dade County.




         OEI-04-08-00570           A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS          8
   F    I N D I N G                S



                                  Home health providers in Miami-Dade County also represented the
                                  majority of providers that received Medicare payments per beneficiary at
                                  amounts over $75,000. Providers in Miami-Dade County accounted for
                                  70 percent (111 of 158) of home health providers nationwide that received
                                  Medicare payments from $75,001 to $100,000 per beneficiary.
                                  Table 2 shows total outlier payments per beneficiary, the number of
                                  home health providers receiving those payments in the entire Nation
                                  and Miami-Dade County, and the percentage of providers in
                                  Miami-Dade County receiving those payments.



Table 2: Home Health Outlier Payments Per Beneficiary in 2008

                                            Number of Providers in                                                             Miami-Dade Providers as a
  Total Outlier Payment Amount              All Counties (including                       Number of Providers in               Percentage of Providers in
  Per Beneficiary                            Miami-Dade County)*                            Miami-Dade County*                             All Counties**

  Up to $25,000                                                      5,782                                             327                                  6%

  $25,001 to $50,000                                                 1,400                                             280                             20%

  $50,001 to $75,000                                                    468                                            232                             50%

  $75,001 to $100,000                                                   158                                            111                             70%


  Over $100,000                                                           29                                            25                             86%

                               Total                                 7,837                                             975                             12%

* Some providers may be included in more than one category.
** Rounded to the closest whole number.
Source: OIG analysis of 2008 Medicare home health claims.




                                  Sixty-seven percent of home health providers that received total outlier
                                  payments over $1 million in 2008 were located in Miami-Dade County
                                  In 2008, a total of 829 providers nationwide received Medicare home
                                  health outlier payments. Of the providers that received outlier
                                  payments over $1 million, 67 percent (174 of 259) were located in
                                  Miami-Dade County. Twenty-two providers nationwide received outlier
                                  payments over $5 million in 2008. Of these providers, 91 percent
                                  (20 of 22) were located in Miami-Dade County.




       OEI-04-08-00570            A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS        9
 F        N D           N G S


                                Table 3 shows the number of home health providers receiving total
                                outlier payments over $1 million in the entire Nation and Miami-Dade
                                County and the percentage of providers in Miami-Dade County
                                receiving those payments in 2008.



 Table 3: Total Home Health Outlier Payments Over $1 Million in 2008

                                                                                                  Miami-Dade Providers
                                            Number of Providers in                                   as a Percentage of
                                            All Counties (including   Number of Providers in            Providers in All
     Total Outlier Payment Amount              Miami-Dade County)       Miami-Dade County                     Counties'

     Over $1 million to $5 million                             237                       154                       65%

     Over $5 million to $10 million                             21                        19                       90%

     Over $10 million                                            1                         1                      100%

                                Total                          259                      174                        67%

 • Rounded to the closest whole number. 

 Source: OIG analysis of 2008 Medicare home health claims. 





              In Miami-Dade County, Medicare outlier       The primary diagnosis associated
payments for home health claims with a primary             with almost one-quarter of all
  diagnosis related to diabetes were eight times           home health visits nationally in
                                                           2008 was related to diabetes. 39
                              the national average
                                                           Medicare outlier payments for
                    these visits accounted for 6 percent of all home health payments. In
                    Miami-Dade County, Medicare outlier payments for home health visits
                    with a primary diagnosis related to diabetes accounted for 50 percent­
                    or eight times the national average-oftotal home health payments.
                    Further, the percentage of outlier payments in Miami-Dade County
                    exceeded that of other Florida counties with higher rates of diabetes. 4o 41



                                   39 The beneficiaries may have also received other services for conditions unrelated to
                                diabetes during these visits.
                                   40 We obtained diabetes rates among Florida adults over the age of 20 years from the
                                Centers for Disease Control and Prevention. These rates were for 2005, the most recent
                                year available at the time of our review. Available online at
                                http://apps.nccd.cdc.govillDT STRS2/CountyPrevalenceData.aspx?Stateld=12. Accessed on
                                June 16, 2009.
                                   41 We ranked Florida counties according to the number of adults with diabetes and
                                selected the four counties with the largest populations of adults with diabetes as well as a
                                diabetes rate exceeding that in Miami-Dade County.



      OEI·04·08·00570           ABERRANT HOME HEALTH OUTLIER PAYMENT PATTERNS IN MIAMI-DADE COUNTY AND OTHER AREAS             10
F      N D        N G S



                      Table 4 shows a comparison of the most recently available rates of
                      diabetes among adults over age 20 in Miami-Dade County and four
                      other Florida counties and the corresponding outlier payment rates for
                      home health claims with a primary diagnosis related to diabetes in each
                      county in 2008.


                      Table 4: Comparison of Adult Diabetes Rates and Medicare Outlier
                      Payments for Home Health Claims With a Primary Diagnosis Related to
                      Diabetes in Five Florida Counties
                                                                                                     Medicare Outlier Payment
                                                                                                       Rate for Claims With a
                                                      Number of Adults        Adult Diabetes               Primary Diagnosis
                        County                          With Diabetes*                Rate* t            Related to Diabetes"

                        Miami-Dade                             129,100                   7.5%                                 50%

                        Hillsborough                            73,810                   9.1%                                 4%

                        Duval                                   50,260                   8.6%                                 1%

                        Pinellas                                66,280                   9.1%                                 1%

                        Palm Beach                              84,500                   8.8%                                 1%

                      • Source: The Centers for Disease Control and Prevention. The data were for 2005. the most recent year 

                      available at the time of our review. 

                      tin 2005, the rate of diabetes in Florida was 17.1 percent in adults aged 65-74 years and 15.7 percent in 

                      adults aged 75 or older. Rates were based on the total population of adults aged 18 years or older. 

                      •• Source: OIG analysis of 2008 Medicare home health claims. 





    Twenty-three counties nationwide exhibited           Medicare payments in
aberrant home health outlier payment patterns            Miami-Dade County were at least
                                                         twice the national average for all
 similar to that of Miami-Dade County but to a
                                                         five home health outlier payment
                                    lesser extent
                                                         characteristics we reviewed. An
                   additional 23 counties nationwide had payments that were at least
                   twice the national average for three or more of the five characteristics. 42
                   See Appendix A for a summary of the Medicare home health outlier
                   payments for each of the five payment characteristics we reviewed in
                   Miami-Dade County and the other 23 counties.




                        42 We do not identify the 23 counties because they may be subject to future OIG and
                      HEAT reviews.



    OEI·04-08-00570   ABERRANT HOME HEALTH OUTLIER PAYMENT PATTERNS IN MIAMI-DADE COUNTY AND OTHER AREAS                            11
FINDINGS



                  Of the total home health providers in Miami-Dade County and the other
                  23 counties, 59 percent (850 of 1,432) were paid at least twice the
                  national average for three or more of the five payment characteristics
                  we reviewed. See Appendix B for additional details on the number of
                  providers that were paid at least twice the national average for three or
                  more payment characteristics, as well as the total number of providers
                  in each county.




OEI-04·08·00570   ABERRANT HOME HEALTH OUTLIER PAYMENT PATTERNS IN MIAMI-DADE COUNTY AND OTHER AREAS   12
   R E C O M M E N D A T I O N S




                  South Florida has been the focus of efforts to combat Medicare fraud,
                  waste, and abuse in recent years. In addition, in May 2009, HHS and
                  DOJ established an interagency HEAT team to combat health care
                  fraud nationwide. Our findings demonstrate that home health services
                  in Miami-Dade County, as well as in 23 additional counties nationwide,
                  warrant additional review as a part of ongoing antifraud activities in
                  the Medicare program.

                  We found that Miami-Dade County accounted for more home health
                  outlier payments in 2008 than the rest of the Nation combined. Over
                  85 percent of home health providers that received outlier payments over
                  $100,000 per beneficiary were located in Miami-Dade County. In
                  addition, 67 percent of home health providers that received total outlier
                  payments over $1 million were located in Miami-Dade County. We also
                  found that in Miami-Dade County, Medicare outlier payments for home
                  health claims with a primary diagnosis related to diabetes were eight
                  times the national average.

                  In addition, we found that 23 other counties exhibited aberrant home
                  health payment patterns similar to that of Miami-Dade County but to a
                  lesser extent. Over half of the total home health providers in Miami-
                  Dade County and the 23 other counties we identified were paid at least
                  twice the national average for three or more of the five payment
                  characteristics we reviewed.
                  To address our findings, we recommend that CMS:
                  Continue With Efforts To Institute a Cap on the Total Outlier Payments an
                  Individual Home Health Provider May Receive Annually
                  In August 2009, CMS issued a home health PPS proposed rule for 2010
                  to cap outlier payments to individual home health providers at 10
                  percent, thus reducing national outlier payments to an estimated 2.5
                  percent of total home health payments. Capping outlier payments to
                  individual home health providers may make the area of home health
                  services less prone to fraudulent activity by mitigating potential
                  inappropriate billing vulnerabilities. Currently, CMS imposes a cap on
                  the payments a hospice agency may receive based on the number of
                  Medicare beneficiaries the agency serves.




OEI-04-08-00570   A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS   13
R   E C O        M M E N D A T                       I O N              S


                      Review Home Health Providers That Exhibit Aberrant Outlier Payment
                      Patterns and Respond Appropriately Based on the Findings
                      For example, CMS could develop a method of determining thresholds for
                      a number of characteristics that would trigger an immediate,
                      prepayment review. These characteristics may include the factor by
                      which a provider’s average outlier payment exceeds the national
                      average.

                      To assist CMS, we provided information under separate cover on the
                      specific providers in this report that were paid at least twice the
                      national average for three or more of the five payment characteristics
                      we reviewed.
                      Continue With Efforts To Strengthen Enrollment Standards for Home
                      Health Providers To Prevent Illegitimate Home Health Agencies From
                      Obtaining Billing Privileges
                      In its August 2009 home health PPS proposed rule, CMS described
                      methods for limiting enrollment of home health agencies having
                      characteristics associated with fraudulent activity (e.g., sharing the
                      same practice location, selling or transferring ownership of the agency
                      within 3 years of enrollment). We encourage CMS to continue to pursue
                      these methods for limiting the enrollment of home health providers.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with all three recommendations. At the time of its
                      comments, CMS was analyzing public comments on the home health
                      PPS proposed rule which would, among other things, cap outlier
                      payments at 10 percent per agency. The final rule was published in the
                      Federal Register on November 10, 2009, and is effective January 1,
                      2010. CMS has also taken steps to address widespread abuse of
                      Medicare outlier payments to home health agencies in Miami-Dade
                      County. Specifically, CMS is (1) suspending home health agencies with
                      high amounts of outlier payments, (2) enhancing visits to beneficiaries
                      in their homes to verify that they qualify for home health services, and
                      (3) utilizing auto-denial edits for beneficiaries who do not qualify for
                      home health services.

                      Further, CMS initiated a new process in January 2009 to deny the
                      enrollment of a home health agency if the owner has an existing
                      overpayment that has not been fully repaid or has been placed under
                      Medicare payment suspension. As of January 2009, CMS contractors

    OEI-04-08-00570   A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS   14
R   E C O        M M E N D A T                       I O N              S


                      are required to perform additional verification of home health agencies
                      having certain characteristics (i.e., agencies that change their practice
                      locations, banking information, special payment addresses, or reactivate
                      their Medicare billing privileges). In the home health PPS final rule,
                      effective January 1, 2010, CMS also established methods for limiting
                      enrollment of home health agencies based on certain characteristics.

                      We support CMS’s efforts to address these issues and encourage it to
                      continue making progress in these areas. We made technical changes to
                      the report based on CMS’s comments. For the full text of CMS’s
                      comments, see Appendix C.




    OEI-04-08-00570   A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS   15
              A P P E N D I X                                   A

Counties in Which Medicare Home Health Payments Were At Least Twice the National Average for Three or More of the Five Characteristics We Reviewed

                                       Average Outlier                                                                                                                              Outlier Payment Rates for    Total Number of Payment
                                         Payment Per               Average Outlier Payment                      Average Outlier Payment                                                Claims With a Primary       Characteristics At Least
  County                                     Provider                       Per Beneficiary                                  Per Claims              Outlier Payment Rates *   Diagnosis Related to Diabetes*   Twice the National Average

  All counties
  (National Average)                          $110,785                                           $378                                      $190                          7%                              6%
  Miami-Dade                                $1,581,608                                      $11,928                                      $4,100                          59%                            50%                               5
  1                                           $295,223                                        $1,617                                       $807                          22%                            20%                               5
  2                                           $355,417                                        $1,379                                       $682                          19%                            15%                               5
  3                                           $267,941                                        $1,396                                       $575                          26%                            21%                               5
  4                                           $233,407                                        $1,496                                       $538                          17%                            14%                               5
  5                                           $541,411                                           $785                                      $490                          15%                            14%                               5
  6                                           $628,018                                      $10,129                                      $2,166                          53%                            52%                               5
  7                                           $245,482                                        $1,504                                       $644                          18%                            17%                               5
  8                                           $416,053                                        $2,057                                     $1,117                          25%                            23%                               5
  9                                           $143,841                                           $812                                      $453                          14%                            13%                               4
  10                                          $307,569                                        $1,728                                       $559                          14%                            10%                               4
  11                                          $945,903                                           $736                                      $709                          20%                            16%                               4
  12                                          $176,877                                        $1,961                                       $605                          19%                            18%                               4
  13                                          $334,637                                        $1,949                                       $348                          16%                            12%                               4
  14                                          $415,415                                           $751                                      $463                          17%                            15%                               4
  15                                          $359,730                                           $590                                      $440                          18%                            15%                               4
  16                                          $200,225                                        $1,267                                       $448                          17%                            16%                               4
  17                                          $258,952                                           $494                                      $646                          18%                            18%                               4
  18                                          $201,032                                        $1,369                                       $420                          13%                            12%                               3
  19                                           $24,416                                        $1,436                                       $740                          29%                               --                             3
  20                                           $26,399                                             $89                                     $471                          14%                            14%                               3
  21                                          $199,801                                           $776                                      $487                          21%                            11%                               3
  22                                          $196,123                                           $805                                      $372                          14%                            13%                               3
  23                                           $98,316                                           $603                                      $557                          16%                            15%                               3
* Rates are based on total 2008 Medicare home health payments.
** Characters in bold indicate payment characteristics at least twice the national average.
Source: Office of Inspector General analysis of 2008 Medicare home health claims.




                   OEI-04-08-00570             A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS                                           16
              A P P E N D I X                                   B


Home Health Providers in the Miami-Dade County and the 23 Counties That Were Paid At Least Twice
the National Average for Three or More of the Five Payment Characteristics We Reviewed
                                                                                                             Total Number of Providers
                            Number of Providers With Three or More Payment
                                                                                                                    With Three or More
                           Characteristics At Least Twice the National Average
                                                                                                            Payment Characteristics At
                                  Three                     Four                          Five                Least Twice the National                   Total Number of
  County                  Characteristics         Characteristics               Characteristics                               Average                           Providers
  Miami-Dade                             4                           56                          248                                     308                         335
  1                                     12                           60                          164                                     236                         399
  2                                      7                           13                            18                                     38                          87
  3                                      0                             0                            1                                      1                           1
  4                                      2                             7                           22                                     31                          98
  5                                      0                             0                            1                                      1                           2
  6                                      0                             0                            1                                      1                           1
  7                                      1                             2                            5                                      8                          36
  8                                      1                             0                            5                                      6                          11
  9                                      1                             6                           10                                     17                          46
  10                                     1                             0                            0                                      1                           1
  11                                     0                             1                            6                                      7                          14
  12                                    10                           74                            81                                    165                         328
  13                                     0                             0                            1                                      1                           3
  14                                     0                             0                            1                                      1                           3
  15                                     0                             0                            1                                      1                           3
  16                                     1                             1                            1                                      3                           6
  17                                     0                             0                            1                                      1                           6
  18                                     0                             0                            1                                      1                           5
  19                                     1                             0                            0                                      1                           1
  20                                     1                             0                            0                                      1                           1
  21                                     0                             0                            1                                      1                           3
  22                                     1                             8                            9                                     18                          39
  23                                     0                             0                            1                                      1                           3
             Total
      (24 Counties)                     43                         228                           579                                     850                        1,432
Source: Office of Inspector General analysis of 2008 Medicare home health claims.




               OEI-04-08-00570            A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS    17
..       A P PEN 0                                  x .. C



 ~~',R\'ICes,~



                                                                                                                 Centers for Medicare & Medicaid Seivices

(L DElAJT OF HEALTH & UllAN SERVICES
                                                                            Administrator
                                                                                                                 Washington, DC   20201




                                          OCT 2 7 2009

                  DATE:

                  TO:	                 Daniel R. Levinson

                                       Inspector General


                  FROM:	               Charlene Frizzera
                                       AcUng Administrator

                  SUBJECT:	 Officeof Inspector General Draft Report: "Aberrant Medicate Home Health
                                       Outlier. Payment Patterns in Miami-Dade County                  and Other Geographic Areas in
                                       2008," (OEI-04-08-00570)


                  Thank you for the opportunity to review and coml1ent on the above referenced Ofñce of
                 InspectorGeiieral (OlG) draft            report. The Centers forMedicare & Medicaid              Services (CMS)
                 appreciates the 	                            invested to research and report on Medicare's
                                       effort and resources the OlG has

                 home health benefit. CMS has been closely monitoring this issue.

                 The eMS has taken steps to address widespread abuse of outlier payments to Medicare certified
                 home health agencies (HHAs) in Miami-Dade Cowity, Florida. CMS allows outlier payments
                 for situations thatoeciir infi'eqliently within a normal              case-mix. However, there are more than
                 300 HHAs in South Florida that haVe come to rely upoiioiitlier payments                 as a predominant part

                 of their overall reimbursement. 'I'he outlier            payments in Miami are approximately 58 percent
                 (2007 data) of the HHAs overall reimbursement, the highest percentage of outlier payments in
                 the country, compared to a national outlier payment of6 percent.

                 The outlier payment was never intended. to be such a large.partofHHA reÌJl1butsenient. To
                 address this problem,CMShas taken a number of steps:. (1) Suspending FIHAs with high
                 amounts of      outlier payments; (2) E,nhancjng vis.is tobenef;cia1'es in their homes to verify that
                 the beneficiaries aûalify forthe benef1;.and (3) Utílzing auto"deniaI edits for beneficiaries who
                 do not qualify for the hOl1e health benefit. 
 eMS will c.ontinue tøperfòrl1 ongoing beneficiary
                 and physician interviews, as weLl as onsÌte visIts to HEAs in Miami-Dade, which 	                     can re.$ultin
                 edits, revocation, deaotivation, and other actions.

                 Additionally,       in 2007, CMS developed an enrollment demonstration pro.jeet for HIIAs in other
                 geographically.high-risk areas of the country (California   and Texas) to address high-risk services
                 and providers. This demonstration involved strengthenÍ1lg initial provider and supplier
                 ehrollmentand revalidation of enrollm~nt to prevent potentially fraudulent providers from
                 entering the Medicare program. The demonstration also incorporated criminal background
                 checks of owners and managing employees into the providerenrollmetlt process, Although
                 criminal background checks have not yet produced substantial results, mandatory reenroLlment




      OEI.04.08.00570                   ABERRANT HOME HEALTH OUTLIER PAYMENT PATTERNS IN MIAMI.DADE COUNTY AND OTHER AREAS 18
A   P   P E N D       I X ~          C




    OEI-04-08-00570   A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS   19
A   P   P E N D       I X ~          C




    OEI-04-08-00570   A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS   20
A   P   P E N D       I X ~          C




    OEI-04-08-00570   A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS   21
    A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Dwayne F. Grant,
                  Regional Inspector General for Evaluation and Inspections in the
                  Atlanta regional office.

                  Mary-Elizabeth Harmon served as the team leader for this study, and
                  Gerius Patterson served as the Lead Analyst. Other principal Office of
                  Evaluation and Inspections staff from the Atlanta regional office who
                  contributed to the report include Jaime Durley. Central office staff who
                  contributed include Rita Wurm; Robert A. Vito from the Philadelphia
                  regional office also contributed.




OEI-04-08-00570   A B E R R A N T H O M E H E A LT H O U T L I E R PAY M E N T PAT T E R N S   IN   MIAMI-DADE COUNTY   AND   OTHER AREAS   22
